                                AR 11-004


  Office of Inspector General




      AUDIT OF THE
FEDERAL TRADE COMMISSION
  WAREHOUSE OPERATIONS




     September 26, 2011
TABLE OF CONTENTS


EXECUTIVE SUMMARY -------------------------------------------------------------------------------------------------------1
   Results in Brief ------------------------------------------------------------------------------------------------------------------1
   Recommendations ---------------------------------------------------------------------------------------------------------------2

AUDIT RESULTS -----------------------------------------------------------------------------------------------------------------3
   Background ----------------------------------------------------------------------------------------------------------------------4

OBJECTIVE, SCOPE, METHODOLOGY ----------------------------------------------------------------------------------6
   Objective -------------------------------------------------------------------------------------------------------------------------- 6
   Scope ------------------------------------------------------------------------------------------------------------------------------ 6
   Methodology ---------------------------------------------------------------------------------------------------------------------6
     Figure 1: Summary of Overall Warehouse Activity ------------------------------------------------------------------- 6
     Figure 2: Summary of Office Supplies ------------------------------------------------------------------------------------ 7
   Reliability of Computer Based Data ------------------------------------------------------------------------------------------ 7

FINDINGS--------------------------------------------------------------------------------------------------------------------------- 8
   Finding 1 – Aging, Obsolete or Underutilized Furniture held at the Warehouse -------------------------------------8
   Finding 2 – Obsolete and Excessive Amounts of Office Supplies and Other Items are held in Inventory ------ 10
   Finding 3 - Warehouse Storage and Delivery of Bulk Paper Unnecessary ------------------------------------------ 12
   Finding 4 – Inadequate Controls over Inventory ------------------------------------------------------------------------ 13
   Finding 5 – Warehouse Shelf Space is Utilized at about 60 Percent -------------------------------------------------- 14

ABBREVIATIONS USED IN THIS REPORT ---------------------------------------------------------------------------- 16

EXHIBIT A – SUMMARY OF WAREHOUSE ACTIVITY -------------------------------------------------------------- i
   Figure 3: Summary of Overall Warehouse Activity------------------------------------------------------------------------ i
   Figure 4: Summary of Office Supplies -------------------------------------------------------------------------------------- i

EXHIBIT B – MANAGEMENT RESPONSE ------------------------------------------------------------------------------- ii

EXHIBIT C – WAREHOUSE IMAGES ----------------------------------------------------------------------------------- viii
EXECUTIVE SUMMARY

Results in Brief

The FTC has a workforce of over 1,100 employees that work in three Washington, D.C. office
locations and eight field office locations. To support the administrative needs of the three
Washington D.C. office locations, the FTC leases a 22,000 square foot warehouse in Landover, MD
at an annual cost of $221,860 that is used to store an inventory of office supplies, furniture,
equipment, publications and building materials. The warehouse is managed by a contractor who is
on-site five days a week. Two contractor employees are responsible for managing the warehouse,
receiving, storing and issuing goods, and transporting items to and from the warehouse to FTC office
locations. In addition, on delivery days of Tuesday and Thursday, an additional contractor
“consultant” is available to assist in the delivery operations. The FTC pays the contractor $213,000
per year for their services. The overall cost for leasing and operating the warehouse is about
$435,000 per year. The current warehouse lease is set to expire in March of 2012.

The objective of our audit was to determine the cost effectiveness of maintaining the current size
warehouse. This audit was self-initiated by the OIG as a result of weaknesses identified during a
recent investigation in the supply room.

Because there was a lack of information concerning the cost and age of items contained in the
warehouse, we were unable to determine the cost effectiveness of maintaining the warehouse.
However, while we found that there was sufficient justification for having a warehouse, we noted
several opportunities for improving operations, reducing costs and the potential for reducing the
square footage needed to support current FTC operations.

We believe there are opportunities for improvement in the following areas:

   o Discard old and obsolete furniture, equipment, publications and supplies

   o Reduce handling of paper and office supplies through alternate means of acquisition and
     distribution

   o Improve tracking of all items stored in warehouse including computers and other IT
     equipment

   o Improve accountability by independent verification of inventory located at the warehouse

   o Improve utilization of warehouse shelving and space

   o Consider leasing a smaller size warehouse based on reduced storage needs from the
     above actions



                                                                              FTC/OIG-AR 11-004
                                                 1
Recommendations

The OIG recommends that the Administrative Services Office:

        Evaluate all items in the warehouse for current need and obsolescence. Discard,
         excess, or recycle all items no longer needed for utilization in the agency.

        Determine optimum stock levels for each item maintained in the warehouse.
         Determine reorder points to replenish stock and maintain adequate quantities on-
         hand.

        Analyze current usage patterns of office supplies to assess the economy of buying
         and storing large quantities of items. The headquarters stockroom should be included
         in this analysis to determine whether the warehouse should be used to store spare
         items or if the headquarters stockroom has sufficient space to store current needs.

        Evaluate alternative methods of purchasing and delivery of paper and the need to
         store bulk paper at the warehouse. Specifically, paper and office supply vendors will
         store and deliver paper on a set schedule or as needed, generally within one day of a
         request, thereby eliminating the need to store and handle paper in our warehouse.

        Deploy and fully utilize inventory software to track all furniture, supplies, equipment
         and publications. This includes recording all information about an item, such as date
         of purchase and cost, and utilizing bar-coding technology to track items, establishing
         minimum stock levels and reorder points.

        FTC personnel should conduct independent, periodic inventory counts at the
         warehouse to verify contractor records. Any variances should be investigated and
         adjustments made to the official records to ensure that inventory records are accurate.

        Consolidate items and utilize shelf space more efficiently for all items in the
         warehouse to reduce space requirements.

        Based on actions taken in the recommendations above, assess the amount of square
         footage needed for storage and determine whether a smaller warehouse could be
         leased at a reduced cost.




                                                                           FTC/OIG-AR 11-004
                                               2
AUDIT RESULTS

Because there was a lack of information concerning cost of items contained in the warehouse, we
were unable to determine the cost effectiveness of maintaining the warehouse. However, while
we found that there was sufficient justification for having a warehouse, we noted several
opportunities for improving operations, reducing costs and the potential for reducing the square
footage needed to support current FTC operations.

Specifically, we found:

 o Significant amounts of furniture stored at the warehouse was either aging, obsolete, or has
   remained in original boxes for several years waiting to be utilized

 o Office supplies, such as toner print cartridges, binders and shipping envelopes known as
   “jiffy bags” have exceeded their shelf life, in some cases by 5 to 10 years

 o The volume of items on hand may be excessive for current needs. Currently the warehouse
   has 4,800 packing boxes on hand. At current usage rates this amounts to a seven year
   supply of boxes. We also have various toner cartridges on-hand for equipment that is no
   longer in service.

 o A pallet of an obsolete legal reference book, the American Bar Association Antitrust Law
   Developments (4th Ed.) published in 1997, are stored in the warehouse. The current version
   of the ABA Antitrust Law Development update is the 6th edition.

 o Lack of separation of duties in contractor activities. Contractor personnel receive, record,
   transport and distribute all goods from the warehouse to FTC locations with minimal FTC
   oversight. The FTC relies entirely on warehouse contractors to record, protect and issue all
   goods stored at the warehouse. No independent records other than contractor created and
   maintained records are currently available for warehouse stored items such as computers,
   printers, fax machines, toner and other high cost office supplies that are easily lost or
   stolen.

 o Shelf space is utilized at less than 60 percent of capacity.

 o Paper is the single most received and distributed item from the warehouse. Handling of
   bulk paper is inefficient and costly since office supply vendors can deliver it directly to
   office locations at prices competitive with current prices paid by the agency.




                                                                           FTC/OIG-AR 11-004
                                                3
Sound internal controls require:

 o accurate and timely recording of transactions and events;

 o rotation and issuance of items to ensure fresh stock is maintained and obsolescence
   reduced;

 o disposal of broken, obsolete or worn out items on a regular basis to reduce costs of
   handling and storing items; and

 o active management of warehouse operations to ensure that warehouse storage areas are
   fully utilized and space requirements are minimized.

These issues were caused by the lack of availability of management information to users of the
warehouse on a timely basis. While individual decision-makers were generally aware of
warehouse inventory, efforts were not made to fully manage the items in the warehouse and
utilize or dispose of aging, obsolete or excessive amounts of items on hand. As a result, money
has been wasted on items that are held in the warehouse that are deteriorating, underutilized or
becoming obsolete. In addition, additional costs were incurred for square footage that was not
needed. The FTC must obtain more complete and timely information on all items maintained in
the warehouse for managers to make better decisions on either utilizing or disposing of items as
appropriate.

Background

The FTC has a workforce of over 1,100 employees that work in three Washington D.C. office
locations and eight field office locations. To support the administrative needs of the three
Washington D.C. office locations, the FTC leases a 22,000 square foot warehouse in Landover, MD
at an annual cost of $221,860 that is used to store an inventory of office supplies, furniture,
equipment, publications and building materials. The warehouse is managed by a contractor who is
on-site five days a week. Two contractor employees are responsible for managing the warehouse,
receiving, storing and distributing goods, and transporting items to and from the warehouse to FTC
office locations. In addition, on delivery days of Tuesday and Thursday, an additional contractor
“consultant” is available to assist in the delivery operations. The FTC pays the contractor $213,000
per year for their services. The overall cost for leasing and operating the warehouse is about
$435,000 per year. The current lease is set to expire in March of 2012.

The FTC maintains an inventory of furniture to replace broken and worn out furniture as well as
for furnishing offices for new employees. There is a wide variety of furniture stored at the
warehouse such as desks, chairs, credenzas, coat racks, coat closets, and bookcases. Items that
are new are still in their original boxes and are usually dated to be able to match wood colors for
matching furniture, similar to dye lots on fabrics.




                                                                              FTC/OIG-AR 11-004
                                                 4
Office supplies are kept on-hand to maintain an inventory of commonly needed items such as
paper, printer toner cartridges, envelopes and binders. Some of these items, such as bulk paper,
are purchased in large quantities to achieve cost savings and have sufficient quantities on hand to
supply daily office needs. A supply room at the headquarters location supplements the
warehouse inventory and also replenishes its own stock from the warehouse.

Information technology equipment, such as laptops, desktops, printers, servers and associated
accessories is also stored at the warehouse. Generally, items of higher value such as laptops are
stored in a separate locked room in the warehouse. This room can only be accessed by special
key that records who has entered the room.

The warehouse also stores rolled carpet and carpet tiles that serve as replacement stock when
either repairs need to be made or a renovation of an entire floor or office takes place in the
headquarters building. Glue is also stored at the warehouse to adhere the carpet to the floor. In
addition, light bulbs and clay roofing tiles are stored at the warehouse for future repairs or
replacements.

A variety of consumer education publications are also maintained at the warehouse for
distribution. Frequently, staff attend conferences where they give presentations and distribute
FTC publications to supplement their presentations. The FTC also distributes publications
directly to the public through mail or phone call requests. The publications at the FTC
warehouse supplement the ones distributed by the Federal Citizens Information Center in Pueblo,
Colorado.




                                                                             FTC/OIG-AR 11-004
                                                5
OBJECTIVE, SCOPE, METHODOLOGY

Objective

The objective of our audit was to determine the cost effectiveness of maintaining the current size
warehouse. This audit was self-initiated by the OIG as a result of weaknesses identified during a
recent investigation involving the supply room.

Scope

We reviewed records related to warehouse activity for the period April 2010 through March
2011. We also observed warehouse operations during the first 6 months of 2011.

Methodology

We performed our audit through interviews of managers and warehouse staff; reviewed available
records and made observations of warehouse facilities and operations. We specifically obtained
and reviewed warehouse receipt and issue records for the period April 2010 through March
2011. From these records we developed a database of activity of all items that were transferred to
and from the warehouse during this time period. We summarized this activity to determine the
types of items that are most often received and issued by the warehouse. In addition, we
estimated warehouse shelf utilization by visual observation of contents at the warehouse.

We summarized the activity of all warehouse requests that were processed during the April 2010
through March 2011 time period in the table shown below. We categorized the activities into
seven areas, sorted by the quantity requested. (See Figure 1).

                      Figure 1: Summary of Overall Warehouse Activity


                                                           Other
                             Computer      Carpet & Glue   .10%
                             Equipment         .6%
                               4.4%                            Child Care
                 Furniture                                       .37%
                  23.3%




                                                           Office Supplies
                                  Publications                 52.9%
                                    18.3%




                                                                             FTC/OIG-AR 11-004
                                                   6
Because office supplies represent over half of the activity for items requested from the
warehouse, we provided summary chart showing a list of the top 11 items. As shown in Figure 2,
paper accounts for nearly 70 percent of all office supplies delivered.


                            Figure 2: Summary of Office Supplies

       Envelopes Manila Folders         Writing Pads       File Folders
          1%           1%                     1%                1%
      Record Boxes                                                Packing
             4%                                                    Boxes
  Toner                                                             1% Binders
   6%                                                                     1%
  Accordion Folders
      5%
        Burn Bags
            7%
                                                                            Paper
                                                                            70%




Reliability of Computer Based Data

We did not rely on computer based information. Information developed by the contractor in
charge of maintaining the warehouse was limited to the recording of quantities on-hand and their
records were not always timely updated to reflect current inventory information. As a result, we
did not rely on contractor generated computer based records for our testing.

We conducted this performance audit from March 2011 to July 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




                                                                             FTC/OIG-AR 11-004
                                                7
FINDINGS

Finding 1 – Aging, Obsolete or Underutilized Furniture held at the Warehouse

                                                      A significant amount of furniture stored at
                                                      the warehouse was either aging, obsolete, or
                                                      has remained in original boxes for several
                                                      years waiting to be utilized. From a March 2,
                                                      2011 listing, we found 372 chairs listed on
                                                      the inventory. Of the 372 chairs, about 129
                                                      are older leather (circa 1969), fabric or
                                                      antique chairs that are rarely, if ever utilized.

                                                      From our analysis of the warehouse
                                                      transactions from April 2010 through March
                                                      2011, we identified two of the older leather
                                                      chairs placed in service during the year. (See
                                                      illustration 1 & 3). The types of chairs that
                                                      were placed in service during the year were
                                                      the modern side chairs and ergonomic desk
                                                      chairs (Illustration 5). We also found
                                                      furniture, such as credenzas, desks and
                                                      closets that are still in their original shipping
                                                      boxes that have remained on the warehouse
                                                      shelves for many years (Illustration 2).


Illustration 1 -Leather chairs circa 1969




Illustration 2 – New furniture in storage since             Illustration 3 – Rows of older chairs
10/31/06.                                                   and tables.




                                                                                FTC/OIG-AR 11-004
                                                  8
These items are kept in storage at the warehouse to serve as replacements for broken items or for
special occasions where additional furniture is needed. Because there is no real mechanism to
track the usage of furniture, management does not have the necessary information to make
determinations as to current needs as well as when to excess furniture. As a result, furniture
remains stored at the warehouse for an indefinite period of time until it is either placed into
service or excessed. The FTC is incurring additional costs to store furniture that is either
obsolete or not needed for current requirements.




Illustration 4 – Furniture aisle view              Illustration 5 – Modern side chairs in original boxes




                                                                             FTC/OIG-AR 11-004
                                               9
Recommendation 1:

   a.    Evaluate all items in the warehouse for current and/or future need. Discard or excess
         items that are no longer needed for utilization in the agency.

   b.    Determine minimum and maximum numbers of furniture pieces, such as chairs, tables,
         desks, etc., that should be maintained on-hand for future use and replacement. The
         stock levels will be used as reorder points to replenish stock and maintain adequate
         numbers of furniture to be kept on-hand.


Finding 2 – Obsolete and Excessive Amounts of Office Supplies and Other Items are held
            in Inventory

Various office supplies held at the warehouse, such as printer toner cartridges, binders and
shipping envelopes known as “jiffy bags” have exceeded their shelf life, in some cases by 5 to 10
years.




                                                                 We also found over 4,800
                                                                 packing       boxes    at     the
                                                                 warehouse (Illustration 6).
                                                                 Based on our usage analysis
                                                                 from April 2010 to March
                                                                 2011, this would represent
                                                                 about a seven year supply of
                                                                 boxes. One current issue that
                                                                 could mitigate this situation is
                                                                 the high probability that the
                                                                 FTC may be relocating out of
                                                                 its New Jersey building and
                                                                 would       probably    use     a
                                                                 substantial number of these
                                                                 boxes for the move. While a
                                                                 large number of boxes may be
                                                                 utilized, the FTC should assess
                                                                 how many boxes should be
                                                                 held in stock for future use.




Illustration 6 – Packing boxes



                                                                            FTC/OIG-AR 11-004
                                               10
                                                        In addition, we noted a pallet of out-of-date
                                                        legal reference book, the ABA Anti-trust Law
                                                        Developments (4th Ed.) published in 1997,
                                                        stored in the warehouse. The current edition of
                                                        the ABA Antitrust Law Development update
                                                        is the 6th edition (Illustration 7).

                                                        While some of the office supplies may be
                                                        salvageable, items such as the obsolete
                                                        Antitrust Law Development should be
                                                        discarded. Other items, such as the padded
                                                        shipping bags and toner printer cartridges need
                                                        to be evaluated for usability and either issued
                                                        for use or disposed of. We also noted that
                                                        some items were reordered and placed in
                                                        storage at the warehouse despite the fact that
                                                        sufficient quantities were already on hand.
                                                        (See Illustration 8 on “Jiffy bags” that had
                                                        expiration dates over many years).

 Illustration 7- ABA Antitrust 4th Ed. 1977
                                                        This issue was caused by a lack of
                          Expires June 2007             information on the amount and age of
                                                        inventory stored at the warehouse. Other than
                                                        basic inventory levels, the FTC does not have
                                                        a mechanism that tracks all attributes for
                                                        items stored at the warehouse such as: age of
                                                        items, minimum and maximum storage levels,
                                                        acquisition cost, usage patterns, etc. As
                                                        further described in Finding 4, management
                                                        needs to have sufficient information readily
                                                        available on which to base decisions such as
                                                        reorder points, stock rotation and usage
                                                        patterns. At a minimum, management should
                                                        ensure that current stock levels are depleted
                                                        before reordering replacement items.
     Expires April 2001


Illustration 8 - These boxes of Jiffy bags are dated
with expiration dates 04/01 and 06/07 on right.




                                                                                  FTC/OIG-AR 11-004
                                                   11
Recommendation 2

a.     Evaluate all items stored at the warehouse for obsolescence and serviceability, especially
       items that indicate they have expired or are beyond recommended installation dates.
       Items such as toner printer cartridges, padded envelopes and maintenance kits should be
       utilized, recycled or disposed of as necessary.

b.     Determine current usage patterns of office supplies to assess the economy of buying and
       storing large quantities of items. The headquarters stockroom should be included in this
       analysis to determine whether the warehouse should be used to store spare items or if the
       headquarters stockroom has sufficient space to store current daily requirements.


Finding 3 - Warehouse Storage and Delivery of Bulk Paper Unnecessary

The method of purchasing paper in bulk and storing it, as needed, is unnecessary and an
inefficient use of warehouse space and contractor resources. Paper is the single most received
and issued item from the warehouse. To obtain the lowest prices, the FTC purchases paper in
bulk, usually by the truckload from office supply companies. For the one-year period we
reviewed, the FTC warehouse fulfilled over 700 requests for almost 3,600 boxes of paper. Our
analysis showed that office supplies represent almost 53 percent of the warehouse delivery
activity. Within the office supply category, paper represents almost 70 percent of the office
supplies delivered to the three FTC buildings in the Washington D.C. area.

We benchmarked with four local office supply vendors that recently bid on FTC office supply
solicitations to explore alternative methods of delivering office supplies and paper. Three of the
four vendors stated that they could price their bids by the truckload, but would store and deliver
paper as needed to the three FTC Washington, D.C. locations. The three vendors estimated that
this method would only result in a slight increase in price to cover the additional deliveries. The
three vendors also mentioned that they also use this method of hold and delivery of paper for
other federal customers in the D.C. area. The fourth vendor stated that there would be a higher
price increase to cover the additional delivery costs.

Handling and storage of bulk paper is inefficient and costly when office supply vendors could
deliver it directly to the user and offer it at prices similar to prices currently paid. This situation
occurred because vendors have established new, more efficient ways of delivering paper.
Eliminating the need for storing paper would reduce warehouse storage requirements and be
more environmentally friendly as delivery would be made directly to the end user as needed.




                                                                                 FTC/OIG-AR 11-004
                                                  12
Recommendation 3:

a.     Conduct a purchase solicitation using the alternative method of purchasing paper in bulk
       with the contract specification of delivery on demand by the FTC. The solicitation would
       specify that the vendor will store and deliver paper on a set schedule or as needed,
       generally within one day of a request thereby eliminating the need for warehouse storage
       space.


Finding 4 – Inadequate Controls over Inventory

There is a lack of management oversight and separation of duties in contractor activities.
Contractor personnel currently receive, record, transport, and distribute all goods from the
warehouse to FTC locations with minimal FTC oversight. The FTC relies entirely on the
warehouse contractor to record, manage and issue all goods stored at the warehouse. No
independent records exist, other than contractor created and maintained records. The FTC relies
solely on warehouse personnel to track all warehouse items such as furniture, computers,
printers, facsimile machines, and other high cost office supply items that are easily lost or stolen.
In discussions with FTC staff, we found that management completely relies on the contractor to
maintain accurate records of all warehouse inventory items. In addition, no tests are conducted
on contractor records to ensure that they are accurate. While the contractor does conduct
inventory counts on a periodic basis, any adjustments to records are made by the contractor at its
discretion without FTC knowledge or agreement.

Sound internal controls require adequate oversight and separation of duties. Without adequate
oversight, the contractor can alter records and could commit fraud without detection. This
vulnerability was created when management first established a warehouse operation and
contractually assigned responsibility for warehouse accountability and operations entirely to the
contractor. Without adequate oversight, the FTC is susceptible to waste, fraud or abuse by the
contractor going undetected.

Note - During FY 2011, the warehouse contractor installed a new software program to track
inventory. This software is an off-the-shelf program that is designed for inventory accountability
and includes the ability to track items using a bar-code scanner. The warehouse contractor has
begun using the software; however its use was limited to tracking quantities of items and
assigning bar codes to specific products.

Recommendation 4:

a.     Evaluate and install inventory software (such as off-the-shelf software that the contractor
       is using) to track all warehouse items such as furniture, supplies, equipment and
       publications. This includes recording all information about an item, such as date of
       purchase and cost, and utilizing bar-coding technology to track items. The FTC should
       consider the network version of an inventory software program that would be available
       on a shared server with access by FTC and contractor personnel. Specific access
       privileges such as recording and changing the database record should be assigned to

                                                                               FTC/OIG-AR 11-004
                                                 13
       specific users by their job function. In addition, access privileges should be assigned to
       implement separation of duties such as initial recording of items, issuance of items,
       adjustments to inventory amounts, etc.

b.     FTC personnel should conduct periodic inventory counts at the warehouse to verify
       contractor records. Any variances should be investigated and adjustments made to the
       official records to ensure that inventory amounts are accurate.


Finding 5 – Warehouse Shelf Space is Utilized at about 60 Percent

Our analysis of shelf space at the warehouse indicates a utilization of about 60 percent of
capacity. The warehouse is generally organized by item type such as furniture, office supplies,
publications and equipment separated into aisles. Most aisles have 4 to 5 shelves. Because
many shelves were either not used at all or had limited number of items on a shelf, we estimated
that approximately 40 percent of the overall shelf space was not used.

With a large amount of excess shelf space available, there is no incentive to consolidate items
and shrink the size of the warehouse. Management should discuss shelf utilization with the
contractor to ensure that the warehouse is used as efficiency as possible. In addition, with the
warehouse lease expiring in March of 2012, the FTC should evaluate their needs and determine
if a 22,000 square foot warehouse is still warranted.

Recommendation 5:

Consolidate all items in the warehouse to reduce space requirements.

Recommendation 6:

Based on actions taken in recommendations 1, 2, and 5, assess the amount of square footage
needed for storage and determine if a smaller warehouse could be leased at a reduced cost.




                                                                            FTC/OIG-AR 11-004
                                               14
Management Comments
Management agreed in principle with our findings and has planned or initiated corrective actions
on all recommendations. Management has also established a timetable for completion of the
recommendations within the next six months. Their plans include disposing or recycling excess,
aged or expired items in the warehouse. In addition, actions were taken to bar code accountable
IT inventory, assess additional inventory software for tracking all supplies and inventory items
stored at the warehouse, and conduct a physical inventory of all items in the warehouse. Finally,
management directed the warehouse contractor to consolidate items in the warehouse for more
efficient utilization of space.


OIG Response
We believe management’s response to our recommendation should significantly improve internal
controls at the warehouse and establish accountability over all items located at the warehouse. In
addition, the use of inventory tracking software should provide timely information to managers
enabling them to better utilize items stored at the warehouse, reduce costs and waste, and
improve overall warehouse operations.

Management has indicated that they have assessed and concluded that the need for the current
sized warehouse is justified. While the OIG understands management’s position, we continue to
believe that the future need of the warehouse will be significantly reduced or possibly eliminated
when the FTC moves to other office space, especially if additional storage space can be acquired
at that location. Management should continue to assess its storage needs semi-annually to
determine if it is cost effective to eliminate or move to a smaller warehouse.




                                                                             FTC/OIG-AR 11-004
                                               15
ABBREVIATIONS USED IN THIS REPORT


ABA   American Bar Association
FTC   Federal Trade Commission
FY    Fiscal Year
IG    Inspector General
OIG   Office of Inspector General




                                         FTC/OIG-AR 11-004
                                    16
E



EXHIBIT A – SUMMARY OF WAREHOUSE ACTIVITY

                                    Figure 3: Summary of Overall Warehouse Activity


         Category                   Number of Requests     Percent      Quantity Requested         Percent

Office Supplies                              1012          52.90%                5141.0            68.26%
Publications                                  350          18.30%                 983.0            13.05%
Furniture                                     445          23.26%                 681.0             9.04%
Computer Equipment                             85           4.44%                 556.0             7.38%
Carpet & Glue                                  12           0.63%                 108.5             1.44%
Other                                           2           0.10%                  39.0             0.52%
Child Care                                      7           0.37%                  23.0             0.31%


Totals                                       1913         100.00%                7531.5           100.00%

Activity April 2010 to March 2011




                                          Figure 4: Summary of Office Supplies


Description                         Number of Requests    Percent       Quantity Requested        Percent

Paper                                         704         69.70%                  3593.            69.92%
Burn Bags                                      23          2.28%                   366.             7.12%
Acco Folders                                   42          4.16%                   281.             5.47%
Toner                                          71          7.03%                   321.             6.25%
Record Boxes                                   11          1.09%                   224.             4.36%
Envelopes                                      17          1.68%                    48.             0.93%
Manila Folders                                 27          2.67%                    47.             0.91%
Packing Boxes                                  14          1.39%                    27.             0.53%
Writing Pads                                   16          1.58%                    25.             0.49%
File Folders                                    9          0.89%                    24.             0.47%
Binders                                        15          1.49%                    25.             0.49%
Other                                          61          6.04%                   158.             3.07%

Totals                                        949          100 %                  4981             100.%

Activity April 2010 to March 2011




                                                                                          FTC/OIG-AR 11-004
                                                           i
EXHIBIT B – MANAGEMENT RESPONSE




                                  FTC/OIG-AR 11-004
                    ii
      FTC/OIG-AR 11-004
iii
     FTC/OIG-AR 11-004
iv
    FTC/OIG-AR 11-004
v
     FTC/OIG-AR 11-004
vi
      FTC/OIG-AR 11-004
vii
EXHIBIT C – WAREHOUSE IMAGES




     Used Furniture in Storage            New furniture in boxes (box is dated
                                         08/31/09) and old furniture
 a- Used Furniture

 b

 c - Used Furniture




 IT equipment and Publications          FTC Publications and Paper




                                                             FTC/OIG-AR 11-004
                                 viii
Partially filled shelving                Printer maintenance kits




Laptop batteries dated 03/04/2009         Excess furniture




                                                                FTC/OIG-AR 11-004
                                    ix
        Roof tiles and carpet glue (left)


d roof tiles and carpet glue




                                                FTC/OIG-AR 11-004
                                            x
